No. _________
IN THE SUPREME COURT OF THE UNITED STATES

PHILLIP SHAWN HORTON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPENDIX

/s/ Christopher A. Curtis
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

Christopher A. Curtis **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 05270900
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
(817) 978-2753

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit, CA No. 18-11577, dated
February 13, 2020, United States v. Horton, 950 F.3d 237 (5th Cir.)
Cert granted, judgment vacated, 141 S. Ct. 224 (2020).
.
Appendix B Petition for Writ of Certiorari Granted, Horton v. United States,
141 S.Ct. 224 (2020) (Mem).
Appendix C Judgment and Opinion of Fifth Circuit, CA No. 18-11577, dated
April 6, 2021, United States v. Horton, 993 F.3d 370 (5th Cir.).
Appendix D Judgment and Sentence of the United States District Court
for the Northern District of Texas entered November 23, 2018.
United States v. Horton, Dist. Court 6:18-CR-00022-C (02).

APPENDIX A

Case: 18-11577

Document: 00515309047

Page: 1

Date Filed: 02/13/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 18-11577
_______________________
D.C. Docket No. 6:18-CR-22-2

United States Court of Appeals
Fifth Circuit

FILED
February 13, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
PHILLIP SHAWN HORTON,
Defendant - Appellant
Appeal from the United States District Court for the
Northern District of Texas
Before DENNIS, GRAVES, and WILLETT, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed.

App. A 001

Case: 18-11577

Document: 00515309010

Page: 1

Date Filed: 02/13/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-11577

FILED
February 13, 2020

UNITED STATES OF AMERICA,

Lyle W. Cayce
Clerk

Plaintiff - Appellee
v.
PHILLIP SHAWN HORTON,
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas
Before DENNIS, GRAVES, and WILLETT, Circuit Judges.
JAMES E. GRAVES, JR., Circuit Judge:
Phillip Shawn Horton appeals the sentence imposed following his guilty
plea conviction for possession with intent to distribute 500 grams or more of
methamphetamine. Horton argues that the district court erred in assessing
criminal history points, failing to adjust his sentence for time served on an
undischarged state sentence, ordering the instant sentence to run
consecutively to anticipated state sentences, and failing to adequately explain
its decision to impose the sentence. Horton urges us to reverse and vacate his
sentence and remand for resentencing. We affirm his sentence.

App. A 002

Case: 18-11577

Document: 00515309010

Page: 2

Date Filed: 02/13/2020

No. 18-11577
FACTUAL BACKGROUND
Horton was arrested for the instant offense as a result of an investigation
into the drug trafficking activities of Gilbert Martinez, who was responsible for
distributing large quantities of methamphetamine in the San Angelo, Texas
area. During the course of the investigation, Horton was identified as a courier
for Martinez. Horton was later pulled over by officers who seized a firearm
and five bags of methamphetamine totaling 1,942 grams from Horton’s vehicle.
Horton later divulged that he made three other trips for Martinez, but Horton
was not formally charged for the trips and the presentence investigation report
(“PSR”) counted them as “relevant conduct.” The probation officer calculated
Horton’s total offense level at 35 based on the quantity of drugs noted above.
Horton received a total of five criminal history points, based on state offenses
for possession of a controlled substance, terroristic threats, and possession of
drug paraphernalia, establishing a criminal history category of III.
Accordingly, his guidelines sentencing range was 210 to 262 months of
imprisonment.

The PSR also explicitly noted that the four pending state

charges in Green County, Texas were “unrelated to the instant offense” and
that the “court may impose the sentences to be served consecutive to the
instant offense.” Horton and the government filed statements adopting the
presentence report.
At the sentencing hearing, the district court adopted the PSR’s factual
findings, background data, and guidelines calculations as its own. At the
government’s request, 1 the district court dismissed Horton’s conspiracy count

The indictment against Horton included two counts. Count One listed, along with
Horton’s co-defendants Gilbert Martinez and Dora Elia Gaona, the offense of “conspiracy to
distribute and possess with intent to distribute 500 grams or more of methamphetamine.”
Count Two listed the offense of “possession with intent to distribute 500 grams or more of
methamphetamine.” At Horton’s sentencing, the government asked the court to dismiss
1

2

App. A 003

Case: 18-11577

Document: 00515309010

Page: 3

Date Filed: 02/13/2020

No. 18-11577
listed in the indictment and proceeded to sentencing on Horton’s possession
count. After the court asked if the defense had any evidence or argument,
Horton argued in favor of a sentence at the bottom of the guidelines range
based on his role in the offense, noting that the facts in the PSR indicated that
he “was essentially a mule” or “gofer” for codefendant Martinez’s drug
enterprise. Horton also asked the district court to consider running the instant
sentence concurrently with a state sentence that Horton was serving at the
time as a result of revocation of supervision for a controlled substance offense.
Horton made this request because the instant offense “occurred essentially at
the same time as the violations that led to the revocation of supervision . . .
and the imposition of that [state] sentence.” Horton also requested a facility
placement and participation in a substance abuse program.
Without commenting on Horton’s requests, the district court asked if
Horton would like to make a statement. Horton declined. The district court
sentenced Horton to 262 months of imprisonment and five years of supervised
release with special conditions. The district court did not decide to run the
instant sentence concurrently with any anticipated sentence imposed in
Horton’s four pending state charges. The district court stated on the record its
reasons for imposing the sentence as “address[ing] the sentencing objectives of
punishment and deterrence” and the supervised release as necessary for
Horton to re-assimilate back into society. After announcing that Horton had
the right to appeal, the district court stated, “You may now stand aside.”
Horton filed a timely notice of appeal.

Count One (conspiracy) and proceed with sentencing on Count Two (possession). The court
granted the motion to proceed on Count Two only.

3

App. A 004

Case: 18-11577

Document: 00515309010

Page: 4

Date Filed: 02/13/2020

No. 18-11577
ANALYSIS
Horton’s arguments on appeal can be divided into two categories: one
based on the district court’s failure to consider relevant conduct in Horton’s
state convictions and the other based on the district court’s procedural errors.
With respect to relevant conduct, Horton argues that the district court
erred in assessing criminal history points under U.S.S.G. §§ 4A1.1 and 4A1.2
because the conduct underlying two of his prior state convictions qualified as
relevant conduct to the instant offense. Horton cites to U.S.S.G. § 5G1.3(b)(2)
and contends that the district court erred in failing to order his sentence to run
concurrently with his undischarged state sentence because the sentences arose
from relevant conduct. Horton also argues that the district court erred by not
adjusting his sentence for time already served on his undischarged state
sentence pursuant to U.S.S.G. § 5G1.3(b)(1).

Horton maintains that the

district court erred in declining to concurrently run the sentence with
anticipated state sentences based on relevant conduct. U.S.S.G. § 5G1.3(c).
With respect to procedural errors, Horton argues that the district court
erred in failing to explain its decision to run the sentence consecutively to the
undischarged state sentence and anticipated state sentence based on relevant
conduct. Horton also contends that his sentence is unreasonable because the
district court failed to consider factors in 18 U.S.C. § 3583(c) for a term of
supervised release. Finally, Horton maintains that the district court failed to
adequately explain pursuant to 18 U.S.C. § 3553(c)(1) its reason for imposing
the particular sentence.
I. Relevant Conduct Claims
As an initial matter, the parties dispute which standard of review
applies. The first four arguments on appeal raise fact questions pertaining to
whether the conduct underlying his state offenses are sufficiently connected or
4
App. A 005

Case: 18-11577

Document: 00515309010

Page: 5

Date Filed: 02/13/2020

No. 18-11577
related to the underlying offense to qualify as relevant conduct 2 under U.S.S.G.
§ 1B1.3. See United States v. Nevels, 160 F.3d 226, 229 (5th Cir. 1998) (“The
district court’s determination of what constitutes relevant conduct for
sentencing purposes is a factual finding.”). We review factual findings for clear
error. United States v. Caldwell, 448 F.3d 287, 290 (5th Cir. 2006). “Under the
clearly erroneous standard, we will uphold a finding so long as it is plausible
in light of the record as a whole.” United States v. Ekanem, 555 F.3d 172, 175
(5th Cir. 2009) (internal quotation and citation omitted).
The government argues, however, that Horton failed to preserve his
arguments regarding relevant conduct at the district court. Accordingly, his
arguments on appeal pertaining to relevant conduct should be reviewed only
for plain error. See United States v. Mondragon-Santiago, 564 F.3d 357, 361
(5th Cir. 2009). Acknowledging his failure to properly object at the district
court, Horton concedes that plain error should apply to his arguments about
whether the district court erred in assessing criminal history points under
U.S.S.G. §§ 4A1.1 and 4A1.2, not adjusting his sentence for time served on an
undischarged state sentence pursuant to U.S.S.G. § 5G1.3(b)(1), and declining
to concurrently run the sentence with anticipated state sentences based on
relevant conduct pursuant to U.S.S.G. § 5G1.3(c). “Questions of fact capable
of resolution by the district court upon proper objection at sentencing can never
Relevant conduct includes “all acts and omissions committed, aided, abetted,
counseled, commanded, induced, procured, or willfully caused by the defendant . . . that were
part of the same course of conduct or common scheme or plan as the offense of conviction.”
U.S.S.G. § 1B1.3(a)(1)(A), (a)(2); see § 2D1.1; § 3D1.2(d). Two or more offenses may constitute
part of a common scheme or plan if they are “substantially connected to each other by at least
one common factor, such as common victims, common accomplices, common purpose, or
similar modus operandi.” § 1B1.3, cmt. (n.5(B)(i)). Offenses that do not qualify as a common
scheme or plan may be considered part of the same course of conduct “if they are sufficiently
connected or related to each other as to warrant the conclusion that they are part of a single
episode, spree, or ongoing series of offenses.” § 1B1.3, cmt. (n.5(B)(ii)). Relevant factors
include “the degree of similarity of the offenses, the regularity (repetitions) of the offenses,
and the time interval between the offenses.” § 1B1.3, cmt. (n.5(B)(ii)).
2

5

App. A 006

Case: 18-11577

Document: 00515309010

Page: 6

Date Filed: 02/13/2020

No. 18-11577
constitute plain error.” United States v. Lopez, 923 F.2d 47, 50 (5th Cir. 1991)
(per curiam); see also United States v. Vital, 68 F.3d 114, 118-19 (5th Cir. 1995).
Accordingly, because Horton concedes that the challenges were not developed
in the district court, they cannot constitute plain error. 3
However, the parties dispute whether Horton’s argument that the
district court “consider running” the sentence concurrently with the
undischarged state sentence was sufficiently specific to alert the district court
to U.S.S.G. § 5G1.3(b)(2)’s directive. The sentencing hearing reflects that
Horton asked for a concurrent sentence because “this offense occurred
essentially the same time as the violations that led to the revocation of that
supervision and the imposition of that [state] sentence.”

Other than the

temporal proximity, Horton failed to put forth evidence or elaborate why his
state sentence for possession of 6.3 grams of methamphetamine and a firearm
was “part of the same course of conduct” as the federal offense or should
“warrant the conclusion that they are part of a single episode, spree, or ongoing
series of offenses.” U.S.S.G. §§ 1B1.3(a)(1)(A) and 1B1.3, cmt. (n.5(B)(ii)).
Indeed, the PSR contained information about Horton’s involvement with
Martinez’s drug enterprise, but the PSR did not make an explicit finding that
the state sentence was related to Horton’s role as Martinez’s courier of large
bundles of methamphetamine and cash. “[T]he district court is entitled to rely
upon the information in the PSR as long as the information bears some indicia
of reliability.” United States v. Leeds, 319 F. App’x 334, 336 (5th Cir. 2009)
(citing United States v. Shipley, 963 F.2d 56, 59 (5th Cir. 1992)).

“Mere

Horton in his reply brief argues that we should not apply Lopez’s rule because it has
been undermined by United States v. Olano, 507 U.S. 725, 732-34 (1993) and United States
v. Calverley, 37 F.3d 160, 163-64 (5th Cir. 1994) (en banc). However, we recently explained
that those decisions addressed only legal error and did not overrule Lopez, and we decline to
“overturn this court’s precedent.” See United States v. Davis, 769 F. App’x 129, 130 (5th Cir.
2019); see also United States v. Lindsey, 774 F. App’x 261 (5th Cir. 2019).
3

6

App. A 007

Case: 18-11577

Document: 00515309010

Page: 7

Date Filed: 02/13/2020

No. 18-11577
objections do not suffice as competent rebuttal evidence.” United States v.
Parker, 133 F.3d 322, 329 (5th Cir. 1998).

“Furthermore, if no relevant

affidavits or other evidence is submitted to rebut the information contained in
the PSR, the court is free to adopt its findings without further inquiry or
explanation.” United States v. Vital, 68 F.3d 114, 120 (5th Cir. 1995).
Accordingly, because this factual challenge was not developed in the district
court and Horton failed to sufficiently rebut the PSR, his challenge cannot
constitute plain error. Puckett v. United States, 556 U.S. 129 (2009) (holding
that the error must be “clear or obvious”). Even if we were to assume that
Horton sufficiently preserved this argument, the district court’s implicit
finding that the state offense involving a substantially smaller quantity of
drugs was not relevant to the federal offense is plausible in light of the record
as a whole.
II. Procedural Claims
Horton also raises procedural arguments regarding the district court’s
failure to consider all of the sentencing factors and to adequately explain its
rationale in imposing the chosen sentence, including the decision to run the
sentence consecutively to his state sentences.
Horton argues that the district court erred by failing to explain its
decision to deny his request to run his federal sentence concurrently with the
undischarged state sentence. We review the district court’s interpretation and
application of the Sentencing Guidelines de novo and its factual findings for
clear error. See United States v. Lawrence, 920 F.3d 331, 334 (5th Cir. 2019).
At sentencing, Horton referred to a temporal connection between the offenses,
which, without more, is insufficient to establish a relevant conduct
determination. Cf. United States v. Ortiz, 613 F.3d 550, 558 (5th Cir. 2010)
(finding no “distinctive similarities” or “common accomplices, suppliers, or
buyers between the two offenses” even though the defendant’s two drug
7
App. A 008

Case: 18-11577

Document: 00515309010

Page: 8

Date Filed: 02/13/2020

No. 18-11577
offenses occurred in the same building). Similarly, Horton failed to establish
a “regularity” of the offense because the first state offense involved a “relatively
small amount” of methamphetamine whereas the federal offense involved
“massive quantities of the drug.”

Id. at 558-59.

Given the absence of

elaboration on the relevant conduct, either by Horton or in the PSR, the district
court could have reasonably concluded that Horton’s request that it “consider
running” the sentence concurrently with his state sentence implicated the
policy statement of § 5G1.3(d), which provides in relevant part that “[i]n any
other case involving an undischarged term of imprisonment, the sentence for
the instant offense may be imposed to run concurrently, partially concurrently,
or consecutively to the prior undischarged” sentence. See also U.S.S.G. §
5G1.3(b), cmt. (n.2(D)) (providing an example of imposing a concurrent
sentence when the state offense involved the sale of 25 grams of cocaine and
the federal offense involved the sale of 90 grams of cocaine).

Accordingly, a

finding of clear error is precluded because we lack a “definite and firm
conviction that a mistake has been committed.” United States v. Rodriguez,
630 F.3d 377, 380 (5th Cir. 2011).
As to the remaining procedural claims, Horton concedes that he did not
object to the adequacy of the explanation in the district court, but he contends
that his failure to do so should not result in plain-error review because, after
pronouncing the sentence, the district court told the parties, “you may stand
aside,” and, thus, Horton did not have a reasonable opportunity to object.
Indeed, we have found that requiring a formal objection can be futile where the
district court was openly hostile towards a party and continuously interrupted
its attempts to formally object. United States v. Castillo, 430 F.3d 230, 243
(5th Cir. 2005). However, as the government notes, we have addressed the
same “stand aside” comments before in United States v. Morales, 299 F. App’x
455, 457 (5th Cir. 2008). There, the defendant’s claim was subject to plain8
App. A 009

Case: 18-11577

Document: 00515309010

Page: 9

Date Filed: 02/13/2020

No. 18-11577
error review because the sentence was imposed in open court, his counsel was
present, and the court never expressed “anger, hostility, or unwillingness to
consider a proper objection.” Id. (emphasis added). Nothing in the record
reflects that the district court gave Horton, or indeed anyone, the impression
that a request for further explanation of the sentence would not be entertained
or that any objection on that basis would have been futile.
Accordingly, we apply plain error, which requires a defendant to show
that “(1) there is an error or defect; (2) the legal error is clear or obvious, rather
than subject to reasonable dispute; and (3) the error affected the appellant’s
substantial rights.” Puckett, 556 U.S. at 135. If those “three prongs are
satisfied, the court of appeals has the discretion to remedy the error—
discretion which ought to be exercised only if the error seriously affect[s] the
fairness, integrity or public reputation of judicial proceedings.” Id.
Horton argues that the district court plainly erred by failing to explain
its decision to run his federal sentence consecutively to his anticipated state
sentences for unlawfully carrying a weapon and manufacturing/delivering
methamphetamine.

However, this claim fails because it is premised on

Horton’s admittedly unpreserved argument that those offenses were relevant
conduct. Indeed, the PSR stated that the district court had discretion to run
the sentence consecutively to Horton’s anticipated state sentences because the
pending charges were “unrelated” to the instant offense. As a result, no facts
were developed in the district court regarding relevant conduct, and the
district court had no opportunity to resolve those issues. Lopez, 923 F.2d at
50.
Horton then contends that the district court plainly erred in failing to
articulate its consideration of 18 U.S.C. § 3553(a) factors for terms of
supervised release. See § 18 U.S.C. 3583(c). Horton does not challenge a
specific condition even though the district court imposed several conditions,
9
App. A 010

Case: 18-11577

Document: 00515309010

Page: 10

Date Filed: 02/13/2020

No. 18-11577
including abstention from certain drugs, participation in a drug dependence
treatment program, and participation in a mental health treatment program.
Although district courts have “wide discretion in imposing terms and
conditions of supervised release,” United States v. Paul, 274 F.3d 155, 164 (5th
Cir. 2001), the district court must “set forth factual findings to justify special
probation conditions” in terms of the 18 U.S.C. § 3553(a) factors. United States
v. Salazar, 743 F.3d 445, 451 (5th Cir. 2014). The district court here stated
that imposing the special conditions was necessary to help Horton with reassimilation, obtaining suitable employment, and maintaining a law-abiding
lifestyle.

Accordingly, “the record sufficiently supports the special . . .

condition[s] imposed.” United States v. Dean, 940 F.3d 888, 891 (5th Cir. 2019).
Horton also has failed to establish the third prong of plain error because “he
fail[ed] to show that an [additional] explanation would have changed his
sentence.” United States v. Tang, 718 F.3d 476, 483 (5th Cir. 2013).
Finally, Horton maintains that the district court plainly erred in failing
to explain its decision to impose the maximum 262-month sentence of the
guidelines range. Because Horton’s guideline range exceeds 24 months, he
maintains that the district court failed to state “the reason for imposing a
sentence at a particular point within the range.” 18 U.S.C. § 3553(c)(1). At
sentencing, Horton argued for a sentence at the bottom of the guidelines range
based on his role as a “mule” for Martinez’s drug enterprise. However, the
record here establishes that the district court stated on the record its specific
reasons to impose the sentence, namely to “adequately address the sentencing
objectives of punishment and deterrence.” See United States v. Smith, 440 F.3d
704, 707 (5th Cir. 2006) (holding district court need not engage in a “checklist
recitation of the [§] 3553(a) factors”). “When the judge exercises her discretion
to impose a sentence within the Guideline range and states for the record that
she is doing so, little explanation is required.” United States v. Mares, 402 F.3d
10
App. A 011

Case: 18-11577

Document: 00515309010

Page: 11

Date Filed: 02/13/2020

No. 18-11577
511, 519 (5th Cir. 2005) (noting that the judge should “carefully articulate the
reasons” when imposing a non-guideline sentence). The sentencing transcript
reveals that the court based its sentencing decision on the facts presented in
the PSR and the 3553(a) factors. Horton fails to satisfy the third prong of the
plain-error analysis because he does not explain how the district court’s further
elaboration would have resulted in a shorter sentence. United States v. Hebron,
684 F.3d 554, 559 (5th Cir. 2012) (noting that the defendant “bears the burden
of showing with a reasonable probability that, but for the error, he would have
received a lesser sentence”).
CONCLUSION
For the foregoing reasons, the district court’s judgment is AFFIRMED.

11
App. A 012

APPENDIX B

Case: 18-11577

Document: 00515632453

Page: 3

Date Filed: 11/06/2020

App. B 001

APPENDIX C

Case: 18-11577

Document: 00515810514

Page: 1

Date Filed: 04/06/2021

United States Court of Appeals
for the Fifth Circuit
___________

United States Court of Appeals
Fifth Circuit

FILED

No. 18-11577
___________

April 6, 2021
Lyle W. Cayce
Clerk

United States of America,

Plaintiff—Appellee,
versus
Phillip Shawn Horton,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 6:18-CR-22-2
____________________________
Before Dennis, Graves, and Willett, Circuit Judges.
JUDGMENT ON REMAND
FROM THE SUPREME COURT OF THE UNITED STATES.
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

Case: 18-11577

Document: 00515810487

Page: 1

Date Filed: 04/06/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
April 6, 2021

No. 18-11577

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Phillip Shawn Horton,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 6:18-CR-22-2
ON REMAND FROM
THE SUPREME COURT OF THE UNITED STATES
Before Dennis, Graves, and Willett, Circuit Judges.
James E. Graves, Jr., Circuit Judge:
In light of the Supreme Court’s decision, we consider anew the
validity of the sentence imposed on Phillip Shawn Horton following his guilty
plea conviction for possession with intent to distribute 500 grams or more of
methamphetamine. When Horton first appealed, he argued that the district
court erred in failing to treat his prior and pending state charges as relevant
conduct and failing to adequately explain its decision to impose the sentence.

Case: 18-11577

Document: 00515810487

Page: 2

Date Filed: 04/06/2021

No. 18-11577

We affirmed the sentence and held that, relying upon United States v. Lopez,
923 F.2d 47 (5th Cir. 1991), Horton’s arguments pertaining to the district
court’s failure to consider relevant conduct underlying Horton’s state
convictions were not developed in the district court, so they could not
constitute plain error. We also held that the district court adequately
explained its decision to impose the sentence.
The Supreme Court vacated our decision and remanded for further
consideration in light of Davis v. United States, 140 S. Ct. 1060, 1061 (2020),
which requires that unpreserved claims of factual error be reviewed under
the full plain error test. Because Horton does not show that the district court
committed a clear or obvious error, we again affirm.
I. Background
Horton pleaded guilty for possession with intent to distribute 500
grams or more of methamphetamine after an investigation into the drug
trafficking activities of Gilbert Martinez, who was responsible for distributing
large quantities of methamphetamine in the San Angelo, Texas area. During
the course of the investigation, Horton was identified as a courier for
Martinez. On or about February 8, 2017, Horton was later pulled over by
officers who seized a firearm and five bags of methamphetamine totaling
1,942 grams from Horton’s vehicle. Horton later divulged that he made at
least three other trips for Martinez, but Horton was not formally charged for
the trips and the presentence investigation report (PSR) counted them as
“relevant conduct.” The probation officer calculated Horton’s total offense
level at 35 based on the quantity of drugs noted above. Horton received a total
of five criminal history points, based on state offenses for possession of a
controlled substance, terroristic threats, and possession of drug
paraphernalia, establishing a criminal history category of III. Accordingly, his
guidelines sentencing range was 210 to 262 months of imprisonment. The

2

Case: 18-11577

Document: 00515810487

Page: 3

Date Filed: 04/06/2021

No. 18-11577

PSR also expressly noted that the pending state charges in Green County,
Texas, were “unrelated to the instant offense” and that the “court may
impose the sentences to be served consecutive to the instant offense.”
Horton and the government filed statements adopting the presentence
report.
At the sentencing hearing, the district court adopted the PSR’s factual
findings, background data, and guidelines calculations as its own. On the
government’s motion, the district court dismissed Horton’s conspiracy
count listed in the indictment and proceeded to sentencing on Horton’s
possession count.1 After the court asked if the defense had any evidence or
argument, Horton requested a sentence at the bottom of the guidelines range
based on his role in the offense, noting that the facts in the PSR indicated that
he “was essentially a mule” or “gofer” for codefendant Martinez’s drug
enterprise. Horton also asked the district court to consider running the
instant sentence concurrently with a state sentence that he was serving at the
time as a result of revocation of supervision for a controlled substance
offense. Horton made this request because the instant offense “occurred
essentially at the same time as the violations that led to the revocation of
supervision . . . and the imposition of that [state] sentence.” Horton also
requested a facility placement and participation in a substance abuse
program.

1

The indictment against Horton included two counts. Count One listed, along with
Horton’s co-defendants Gilbert Martinez and Dora Elia Gaona, the offense of “conspiracy
to distribute and possess with intent to distribute 500 grams or more of
methamphetamine.” Count Two listed the offense of “possession with intent to distribute
500 grams or more of methamphetamine.” At Horton’s sentencing, the government asked
the court to dismiss Count One (conspiracy) and proceed with sentencing on Count Two
(possession). The court granted the motion to proceed on Count Two only.

3

Case: 18-11577

Document: 00515810487

Page: 4

Date Filed: 04/06/2021

No. 18-11577

Without commenting on Horton’s requests, the district court asked if
Horton would like to make a statement. Horton declined. The district court
sentenced Horton to 262 months of imprisonment and five years of
supervised release with special conditions. The district court did not run the
instant sentence concurrently with any anticipated sentence imposed in
Horton’s four pending state charges. The district court stated on the record
its reasons for imposing the sentence as “address[ing] the objectives of
punishment and deterrence” and the supervised release as necessary for
Horton to re-assimilate back into society. After announcing that Horton had
the right to appeal, the district court stated, “You may now stand aside.”
Horton filed a timely notice of appeal.
II. Legal Analysis
Horton re-urges the same arguments as before the remand. There are
two categories of arguments: one based on the district court’s failure to
consider relevant conduct in Horton’s state convictions, and the other based
on the district court’s procedural errors.
With respect to relevant conduct, Horton argues that the district court
erred in failing to consider two prior state convictions as relevant conduct to
the instant offense when assessing criminal history points under U.S.S.G. §§
4A1.1 and 4A1.2; not ordering his sentence to run concurrently with his
undischarged state sentence under U.S.S.G. § 5G1.3(b)(2); and not adjusting
his sentence for time already served on his undischarged state sentence
pursuant to U.S.S.G. § 5G1.3(b)(1). He also maintains that the district court
erred in declining to impose a concurrent sentence with anticipated state
sentences based on relevant conduct pursuant to U.S.S.G. § 5G1.3(c).
With respect to procedural errors, Horton argues that the district
court erred in failing to explain its decision to run the sentence consecutively
to the undischarged state and anticipated state sentences based on relevant

4

Case: 18-11577

Document: 00515810487

Page: 5

Date Filed: 04/06/2021

No. 18-11577

conduct. He also contends that his sentence was unreasonable because the
district court failed to consider factors in 18 U.S.C. § 3583(c) for a term of
supervised release. Finally, Horton maintains that the district court failed to
adequately explain pursuant to 18 U.S.C. § 3553(c)(1) its reason for imposing
the particular sentence.
A. Relevant Conduct Claims
On appeal, Horton raises for the first time fact questions pertaining to
whether the conduct underlying his state offenses was sufficiently connected
or related to the underlying offense to qualify as relevant conduct under
U.S.S.G. § 1B1.3. See United States v. Nevels, 160 F.3d 226, 229 (5th Cir.
1998) (“The district court’s determination of what constitutes relevant
conduct for sentencing purposes is a factual finding.”). In light of Davis, we
must review unpreserved factual arguments for plain error under Federal
Rule of Criminal Procedure 52(b). 140 S. Ct. at 1061. Plain error exists
“when: (1) there was an error; (2) the error was clear and obvious; and (3)
the error affected the defendant’s substantial rights.” United States v. GarciaRodriguez, 415 F.3d 452, 454 (5th Cir. 2005). A factual finding “is not clearly
erroneous as long as it is plausible in light of the record as a whole.” United
States v. Jeffries, 587 F.3d 690, 692 (5th Cir. 2009). Even then, the court may
exercise its “discretion to notice a forfeited error . . . only if (4) the error
seriously affects the fairness, integrity, or public reputation of judicial
proceedings.” Garcia-Rodriguez, 415 F.3d at 454 (internal quotation marks
and citations omitted).
Relevant conduct includes “all acts and omissions committed, aided,
abetted, counseled, commanded, included, procured, or willfully caused by
the defendant . . . that were part of the same course of conduct or common
scheme or plan as the offense of conviction.” U.S.S.G. § 1B1.3(a)(1)(A),
(a)(2). Two or more offenses may constitute part of a common scheme or

5

Case: 18-11577

Document: 00515810487

Page: 6

Date Filed: 04/06/2021

No. 18-11577

plan if they are “substantially connected to each other by at least one
common factor, such as common victims, common accomplices, common
purpose, or similar modus operandi.” § 1B1.3, cmt. (n.5(B)(i)). Offenses that
do not qualify as a common scheme or plan may be considered part of the
same course of conduct “if they are sufficiently connected or related to each
other as to warrant the conclusion that they are part of a single episode, spree,
or ongoing series of offenses.” § 1B1.3, cmt. (n.5(B)(ii)). Relevant factors
include “the degree of similarity of the offenses, the regularity (repetitions)
of the offenses, and the time interval between the offenses.” § 1B1.3, cmt.
(n.5(B)(ii)).
As a threshold matter, we address whether the district court even
made factual findings regarding the state offenses. We “have allowed the
district court to make implicit findings by adopting the PSR,” where “the
findings in the PSR are so clear that the reviewing court is not left to ‘secondguess’ the basis for the sentencing decision.” United States v. Carreon, 11
F.3d 1225, 1231 (5th Cir. 1994). Here, the PSR made a finding that the
pending state charges were not related to the instant offense, which Horton
does not dispute. The PSR also made clear that the prior state offenses were
not relevant conduct by counting them for purposes of calculating the
criminal history score. See U.S.S.G. § 4A1.2, cmt. (n.1). Accordingly, we
conclude that the district court made the implicit factual finding that the
underlying conduct of Horton’s state offenses did not qualify as relevant
conduct.
Horton argues that the relevant conduct to the instant offense should
have included his two prior state convictions, which were (1) possession of
approximately 6.3 grams of methamphetamine, for which he was arrested on
January 19, 2017 and sentenced to six years of imprisonment on May 8, 2018
as a result of revocation of supervision for a controlled substance offense; and
(2) possession of drug paraphernalia, for which he was arrested on October

6

Case: 18-11577

Document: 00515810487

Page: 7

Date Filed: 04/06/2021

No. 18-11577

30, 2017. He contends that the underlying conduct of these convictions was
part of regular and repetitive conduct as the instant offense and was similar
and in close temporal proximity to it as well. See § 1B1.3, cmt. (n.5(B)(ii)).
While Horton correctly points out that the first offense was committed only
a few weeks before the federal offense, the state offense involved a
substantially smaller quantity of drugs in a very different context—the
underlying conduct of the federal offense encompassed Horton’s
participation in drug trafficking activities for Martinez and transportation of
large amounts of methamphetamine between Arizona and Texas,2 whereas
with respect to the state offense, Horton was arrested for a much smaller, and
likely personal,3 amount of methamphetamine after police searched his
person due to his erratic behavior at a Walmart store. Further, the connection
between his second state conviction and the federal offense is even more
attenuated. The underlying conduct of the federal offense was part of a series
of trips from October 2016 to February 2017 to procure large amounts of
methamphetamine for Martinez, whereas the drug paraphernalia possession
offense stemmed from a traffic stop in October 2017 during which no drugs
were found. Because the district court’s implicit finding that these two state
offenses were not relevant to the federal offense is plausible in light of the
record as a whole, Horton’s arguments related to his prior state convictions
must fail.

2

According to the PSR, Horton reported several trips to Arizona to procure the
following amounts of methamphetamine for Martinez: (1) 12 pounds; (2) 15 pounds; (3) 5
bundles, or 5 pounds; and (4) 12 pounds. The PSR further stated that “Horton is
responsible for 19,958.40 grams [approximately 44 pounds] of methamphetamine and
1,942 grams of “Ice” [d-methamphetamine hydrochloride, with a purity level of 96%].”
3

Horton admitted to regular use of methamphetamine and that he used
methamphetamine weekly from December 2016 to December 2017.

7

Case: 18-11577

Document: 00515810487

Page: 8

Date Filed: 04/06/2021

No. 18-11577

Additionally, Horton asserts that the relevant conduct to the instant
offense should have included his two anticipated state charges, which were
(1) unlawful carrying of a weapon, for which he was arrested on April 25,
2017; and (2) manufacture/delivery of methamphetamine, for which he was
arrested on December 5, 2017. The weapon charge arose from a traffic stop,
during which a search of his person revealed 51 grams of methamphetamine,
a glass pipe containing residue, and a firearm. The drug charge arose from an
incident in December 2017, during which Horton was stopped for having an
outstanding arrest warrant and a search of his vehicle revealed, inter alia, a
pipe containing white residue and 8.6 grams of methamphetamine that
Horton claimed belonged to him. Though a closer call, the district court’s
implicit finding that the pending state charges were not relevant to the federal
offense is also plausible in light of the record as a whole. The pending state
charges involved relatively small amounts of methamphetamine (51 grams,
or approximately 0.11 pounds) compared to the substantial amounts
transported by Horton from October 2016 to February 2017 (ranging from 5
to 15 pounds). The record also suggests that at least some of the
methamphetamine involved in the pending state offenses was for Horton’s
personal use. Accordingly, Horton’s argument that the district court erred in
declining to concurrently run his sentence with the anticipated state
sentences fails as well.
B. Procedural Claims
Horton also raises procedural arguments regarding the district court’s
failure to consider all of the sentencing factors and to adequately explain its
rationale in imposing the sentence. We again reject these challenges.
First, Horton argues that the district court erred by failing to explain
its decision to deny his request to run his federal sentence concurrently with
the undischarged state sentence. We review the district court’s

8

Case: 18-11577

Document: 00515810487

Page: 9

Date Filed: 04/06/2021

No. 18-11577

interpretation and application of the Sentencing Guidelines de novo and its
factual findings for clear error. See United States v. Lawrence, 920 F.3d 331,
334 (5th Cir. 2019). At sentencing, Horton referred to a temporal connection
between the offenses, which, without more, is insufficient to establish a
relevant conduct determination. Cf. United States v. Ortiz, 613 F.3d 550, 558
(5th Cir. 2010) (finding no “distinctive similarities” or “common
accomplices, suppliers, or buyers between the two offenses” even though the
defendant’s two drug offenses occurred in the same building). Similarly,
Horton failed to establish a “regularity” of the offense because the first state
offense involved a “relatively small amount” of methamphetamine whereas
the federal offense involved “massive quantities of the drug.” Id. at 558–59.
Given the absence of elaboration on the relevant conduct, either by Horton
or in the PSR, the district court could have reasonably concluded that
Horton’s request that it “consider running” the sentence concurrently with
his state sentence implicated the policy statement of § 5G1.3(d), which
provides in relevant part that “[i]n any other case involving an undischarged
term of imprisonment, the sentence for the instant offense may be imposed
to run concurrently, partially concurrently, or consecutively to the prior
undischarged” sentence. See also U.S.S.G. § 5G1.3(b), cmt. (n.2(D))
(providing an example of imposing a concurrent sentence when the state
offense involved the sale of 25 grams of cocaine and the federal offense
involved the sale of 90 grams of cocaine). Accordingly, a finding of clear error
is precluded because we lack a “definite and firm conviction that a mistake
has been committed.” United States v. Rodriguez, 630 F.3d 377, 380 (5th Cir.
2011).
As to the remaining procedural claims, Horton concedes that he did
not object to the adequacy of the explanation in the district court, but he
contends that his failure to do so should not result in plain error review
because, after pronouncing the sentence, the district court told the parties,

9

Case: 18-11577

Document: 00515810487

Page: 10

Date Filed: 04/06/2021

No. 18-11577

“you may stand aside,” and, thus, Horton did not have a reasonable
opportunity to object. Indeed, we have found that requiring a formal
objection can be futile where the district court was openly hostile towards a
party and continuously interrupted its attempts to formally object. United
States v. Castillo, 430 F.3d 230, 243 (5th Cir. 2005). However, as the
government notes, we have addressed the same “stand aside” comments
before in United States v. Morales, 299 F. App’x 455, 457 (5th Cir. 2008).
There, the defendant’s claim was subject to plain error review because the
sentence was imposed in open court, his counsel was present, and the court
never expressed “anger, hostility, or unwillingness to consider a proper
objection.” Id. (emphasis added). Nothing in the record reflects that the
district court gave Horton, or indeed anyone, the impression that a request
for further explanation of the sentence would not be entertained or that any
objection on that basis would have been futile. Accordingly, we apply plain
error review.
Horton argues the district court plainly erred by failing to explain its
decision to run his federal sentence consecutively to his anticipated state
sentences for unlawfully carrying a weapon and manufacturing/delivering
methamphetamine. Even assuming the district court’s failure to state the
reasons for running the sentence consecutively was an error that was clear or
obvious, Horton has not shown that the error affected his substantial rights.
Horton’s failure-to-explain claim rests on the premise that the state offenses
were relevant conduct and should therefore run concurrently with the
sentence pursuant to U.S.S.G. § 5G1.3(b). We have already rejected his
relevant-conduct argument, so the district court was not required to impose
a concurrent sentence here. See Setser v. United States, 566 U.S. 231, 244
(2012) (holding that the district court has discretion to order a consecutive
sentence to an anticipated state sentence). Further, the court was within its
discretion to impose a consecutive sentence given Horton’s criminal history.

10

Case: 18-11577

Document: 00515810487

Page: 11

Date Filed: 04/06/2021

No. 18-11577

See United States v. Izaguirre-Losoya, 219 F.3d 437, 441 (5th Cir. 2000)
(affirming sentence, even though the district court failed to articulate precise
reasons for imposing a consecutive sentence, due to defendant’s extensive
criminal history). As such, the sentence imposed was supported by the record
and not contrary to law. The district court’s alleged failure to articulate
precise reasons for imposing a consecutive sentence did not impair Horton’s
substantial rights.
Next, Horton contends that the district court plainly erred in failing
to articulate its consideration of 18 U.S.C. § 3553(a) factors for terms of
supervised release. See § 18 U.S.C. 3583(c). Horton does not challenge a
specific condition even though the district court imposed several conditions,
including abstention from certain drugs, participation in a drug dependence
treatment program, and participation in a mental health treatment program.
Although district courts have “wide discretion in imposing terms and
conditions of supervised release,” United States v. Paul, 274 F.3d 155, 164
(5th Cir. 2001), the district court must “set forth factual findings to justify
special probation conditions” in terms of the 18 U.S.C. § 3553(a) factors.
United States v. Salazar, 743 F.3d 445, 451 (5th Cir. 2014). The district court
here stated that imposing the special conditions was necessary to help Horton
with reassimilation, obtaining suitable employment, and maintaining a lawabiding lifestyle. Accordingly, “the record sufficiently supports the special .
. . condition[s] imposed.” United States v. Dean, 940 F.3d 888, 891 (5th Cir.
2019). Horton also has failed to establish the third prong of plain error
because “he fail[ed] to show that an [additional] explanation would have
changed his sentence.” United States v. Tang, 718 F.3d 476, 483 (5th Cir.
2013).
Finally, Horton maintains that the district court plainly erred in failing
to explain its decision to impose the maximum 262-month sentence of the
guidelines range. Because Horton’s guideline range exceeds 24 months, he

11

Case: 18-11577

Document: 00515810487

Page: 12

Date Filed: 04/06/2021

No. 18-11577

maintains that the district court failed to state “the reason for imposing a
sentence at a particular point within the range.” 18 U.S.C. § 3553(c)(1). At
sentencing, Horton argued for a sentence at the bottom of the guidelines
range based on his role as a “mule” for Martinez’s drug enterprise.
However, the record establishes that the district court stated specific reasons
to impose the sentence, namely to “adequately address the sentencing
objectives of punishment and deterrence.” See United States v. Smith, 440
F.3d 704, 707 (5th Cir. 2006) (holding district court need not engage in a
“checklist recitation of the [§] 3553(a) factors”). “When the judge exercises
her discretion to impose a sentence within the Guideline range and states for
the record that she is doing so, little explanation is required.” United States
v. Mares, 402 F.3d 511, 519 (5th Cir. 2005) (noting that the judge should
“carefully articulate the reasons” when imposing a non-guideline sentence).
The sentencing transcript reveals that the court based its sentencing decision
on the facts presented in the PSR and the 3553(a) factors. Horton fails to
satisfy the third prong of the plain error analysis because he does not explain
how the district court’s further elaboration would have resulted in a shorter
sentence. United States v. Hebron, 684 F.3d 554, 559 (5th Cir. 2012) (noting
that the defendant “bears the burden of showing with a reasonable
probability that, but for the error, he would have received a lesser sentence”).
III. Conclusion
For the foregoing reasons, the district court’s judgment is
AFFIRMED.

12

APPENDIX D

Case 6:18-cr-00022-C-BU Document 93 Filed 11/28/18

Page 1 of 4 PageID 225

App. D 001

Case 6:18-cr-00022-C-BU Document 93 Filed 11/28/18

Page 2 of 4 PageID 226

App. D 002

Case 6:18-cr-00022-C-BU Document 93 Filed 11/28/18

Page 3 of 4 PageID 227

App. D 003

Case 6:18-cr-00022-C-BU Document 93 Filed 11/28/18

Page 4 of 4 PageID 228

App. D 004

